                SEMIANNUAL
            REPORT TO CONGRESS




________________________________________________

                     April 1999



         October 1, 1998, to March 31, 1999




              U.S. Department of Energy
              Office of Inspector General
OIG reports are available electronically at the following website address:
http://www.hr.doe.gov/ig/. Persons wishing to request hardcopies to be mailed to them may
do so by calling the automated OIG Reports Request Line at (202) 586-2744.
                                     April 30, 1999


The Honorable Bill Richardson
Secretary
U.S. Department of Energy
Washington, D.C. 20585

Dear Secretary Richardson:

I am pleased to submit the Office of Inspector General’s (OIG) Semiannual Report to
Congress. The report summarizes significant OIG activities and accomplishments during
the 6-month period ending March 31, 1999. The Inspector General Act, as amended,
requires you to forward the report to the appropriate congressional oversight committees
within 30 days of your receipt of this report.

During this reporting period, the OIG issued over 40 reports designed to advise
Headquarters and field managers of opportunities to improve the efficiency and
effectiveness of Department programs and operations. To cite several of our most
important products issued during this period, in February 1999, we issued a report on
implementation of the Government Performance and Results Act of 1993. In short, we
concluded that implementation is progressing, but that it is incomplete. This issue was
the subject of a congressional oversight hearing in March 1999. Additionally, we issued
our report on the Department’s Consolidated Financial Statements for Fiscal Year 1998.
The report, which included a qualified audit opinion on the 1998 financial statements,
addresses needed improvements to the environmental liabilities estimating process and
the reporting of performance measure information. We also issued two reports that
identified the need for the Department to improve the cost-effectiveness of the
Department’s aircraft operations. Further, we issued two reports on OIG reviews of the
Department’s conference activities.

We plan to continue to focus our reviews on the key management challenges and
program risks facing the Department. Our primary objective in this regard, identifying
strategies for making Department operations more efficient, is consistent with the goal
for the Department that you have emphasized. We will review Department programs
relating to environmental compliance, safety and health, contract and project
management, counterintelligence, and security and we will also examine the
Department’s further implementation of the Government Performance and Results Act.
We plan on conducting a number of performance reviews at several major Department
facilities. Lastly, we will emphasize the successful pursuit of significant criminal and
civil investigations.
We will continue working with you, other Department and Administration officials, and
the Congress in pursuing our mutual objectives.

                                           Sincerely,

                                             /s/

                                           Gregory H. Friedman
                                           Inspector General
Enclosure
                                                      CONTENTS


INTRODUCTION.....................................................................................................              1

HIGHLIGHTS ..........................................................................................................          2

OIG ACCOMPLISHMENTS IN MEETING ITS STRATEGIC GOALS.............                                                                7

       Other Accomplishments ...................................................................................... 24

MANAGEMENT CHALLENGES........................................................................... 26

RESOURCE CONSIDERATIONS .......................................................................... 27

REPORTING REQUIREMENTS............................................................................ 28

REPORTS ISSUED

       Audit Reports...................................................................................................... 29
       Inspection Reports.............................................................................................. 32

STATISTICS

       Definitions..........................................................................................................   34
       Office of Audit Services ......................................................................................         36
       Office of Investigations.......................................................................................         40
       Office of Inspections...........................................................................................        41
OIG Semiannual Report to Congress


                                   INTRODUCTION


This Semiannual Report to Congress covers the period October 1, 1998, to March 31,
1999. The report summarizes significant Office of Inspector General (OIG) audit,
inspection, and investigative accomplishments which facilitated Department of Energy
(Department) efforts to improve the overall management of its programs. The OIG has
developed a Strategic Plan which sets out its overall goals and objectives. The Office’s
significant accomplishments are grouped by the strategic goals against which the OIG
measures its performance.

The following statistical data summarizes the OIG’s accomplishments for this reporting
period:

•Audit and Inspection reports issued: 58
•Dollar value of recommendations that funds be put to better use: $123,688,532
•Dollar value of management commitments to taking corrective actions: $17,121,000
•Questioned costs: $825,391
•Investigative cases opened: 32
•Investigative cases closed: 61
•Open Qui Tam investigations: 20
•Open multi-agency task force and joint agency investigations: 64
•Cases referred for prosecution: 18
•Cases accepted for prosecution: 14
•Criminal and civil actions: 17
•Fines, settlements, and recoveries: $8,955,099
•Debarments/suspensions: 11
•Administrative discipline and other management actions: 19
•Investigative reports to prosecutors and Department management: 12
•Total Hotline calls, letters, and other complaints: 548

In the report summaries that follow where it is indicated that management has not
concurred with OIG recommendations, appropriate followup action will be pursued.
When audit and management inspection reports contain recommendations with which
management has agreed, corrective actions are tracked by the Department until
completed. When there is disagreement between Department management and the OIG,
the Department must prepare a Management Decision describing its position and any
alternative actions. Management Decisions are reviewed by the Chief Financial Officer
(CFO). If disagreements persist, the CFO may convene a meeting of the Department
Internal Control and Audit Resolution Council (DICARC), which consists of the CFO,
the Inspector General, and other management representatives. The DICARC works to
achieve mutually agreeable audit resolution.




                                            1
OIG Semiannual Report to Congress


                                    HIGHLIGHTS


Following are summaries of significant reports issued or outcomes reported during the
reporting period:

Implementation of Government Performance and Results Act Progressing, But
Incomplete. To improve the Federal Government’s program effectiveness and public
accountability, Congress enacted the Government Performance and Results Act of 1993
(Results Act). The OIG found that the Department was making good progress in some
areas but that further actions were required. The audit focused on five of the
Department’s program office budget requests. The budget requests for the two largest
program offices, Defense Programs and Environmental Management, generally
demonstrated proper integration between the long-term strategic goals and the day-to-day
activity-level performance data. In addition, these budget requests showed progress in
creating measurable and results-oriented performance information. However, the budget
requests for the Offices of Energy Research, Energy Efficiency and Renewable Energy,
and Nuclear Energy Science and Technology needed improvement. They did not clearly
integrate the activity-level performance data with the strategic planning data and did not
include measurable and results-oriented performance standards to which the programs
and their contractors could be held accountable. Furthermore, none of the program
offices had defined processes in place to ensure that all performance data collected from
their contractors were reliable.

The OIG made recommendations focused on strengthening the existing policies and
guidance to ensure clear integration between the Department’s strategic documents and
the information on specific activities listed in the budget requests. Department
management agreed with the findings and recommendations and believed that the audit
would be useful as the Department continued to improve its guidance and implementation
of the Results Act. (IG-0439)

Overcharging by Basin Electric. In June 1997, the OIG found that an electric power
cooperative overcharged the Western Area Power Administration (Western)
approximately $23.8 million. These overcharges occurred because the cooperative did
not perform several actions properly. For example, the cooperative made faulty
calculations of amortization rates for deferred costs and overcharged for the cost of coal.
In addition to the $23.8 million in overcharges, the audit estimated interest accrued on the
overcharges through December 31, 1996, to be approximately $22.1 million, resulting in
a total of $45.9 million due Western. The audit was performed at the request of Western
in response to a Qui Tam suit filed by a former employee of the cooperative on behalf of
the Federal Government. The U.S. Department of Justice (DOJ) intervened in the lawsuit
on September 3, 1997. The OIG provided investigative support to DOJ. A trial was held
in U.S. District Court on March 1-12, 1999. On March 29, 1999, the court ruled that the
electric cooperative twice breached its contract with Western and once deliberately
overcharged the Federal agency, constituting fraud, and ordered the cooperative to pay
the Federal Government $47.4 million. (IG-0409)



                                             2
OIG Semiannual Report to Congress



Efforts to Increase Contractor Financial Responsibility Result in Greater Costs. In
1994, the Department’s contract reform team recommended that the Department’s major
for-profit operating contractors assume greater financial responsibility. In response, the
Department developed model contract provisions to increase contractor financial
responsibility and accountability.

The OIG determined that the Department has not been successful in protecting the
Government against contractor created liabilities in 16 of its 20 major for-profit operating
contracts. The Department had not incorporated contract reform liability provisions into
many of its major operating contracts. Also, Department officials had not recognized the
implications of adding contract reform liability provisions without obtaining a
performance guarantee with indemnification provisions from parent companies of the
Department’s major operating contractors. As a result, the Department may be liable for
monetary awards resulting from liabilities such as fines, penalties, third-party claims, and
damages to or loss of Government property.

The OIG recommended that the Director, Procurement and Assistance Management
(1) negotiate changes in major for-profit operating contracts to include contract reform
liability provisions and ensure that performance guarantees with indemnification
provisions are executed with subsidiary contractors’parent or corporate business, and (2)
issue a regulatory rulemaking that requires indemnification provisions be included in
performance guarantees signed by the parent or corporate business entity of subsidiary
contracts. Department management generally concurred with the finding and
recommendations. Department management indicated in its response that the
mechanisms necessary to effect the new requirements were in place; however, the
implementation is not complete.
(IG-0432)

The Cost of Department Aircraft Activities Can be Reduced. The
OIG issued two reports that identified a need to improve the cost effectiveness and
management of the Department’s aircraft activities. As of November 1998, the
Department owned 30 operating aircraft, including 12 fixed wing planes and 18
helicopters. In prior reporting periods, the OIG issued four audit reports on various
aspects of the Department’s aircraft activities. Each of the prior reports addressed needed
improvements in the management or cost-effective utilization of Department aircraft.

One of the current reviews identified a need for increased Department management of
aviation activities. For example, the OIG found that an independent review of the
continuing need for aircraft has been performed only on a limited basis, and no
Headquarters organization had the responsibility to monitor aviation costs. In addition,
Headquarters does not validate mission need when approving aircraft acquisition.
Finally, the OIG found that information reported to the General Services Administration
(GSA) significantly understated the Department’s use of aircraft rentals and charters. To
resolve these issues and ensure that they are coordinated on an agency-wide basis, the




                                             3
OIG Semiannual Report to Congress


OIG suggested that the Department assign overall management responsibility and
authority for aircraft activities to a Headquarters entity.

In its review of the Albuquerque Operations Office’s aircraft activities, the OIG
concluded that costs to operate the Department’s aircraft at Albuquerque were excessive
because of the number of personnel employed by the air service contractor. Projected
costs to operate Albuquerque’s aircraft over the next 2 years will be as much as $5.7
million more than necessary. In addition, the OIG concluded that Albuquerque’s
retention of the same aircraft was not justified based on unique or necessary services.
This aircraft, a BE-200 King Air, was used as a shuttle to transport passengers between
Albuquerque and Amarillo, Texas, at a cost of $1,474 per person per round trip. This
compared to readily available commercial fares of $185 per person per round trip.

Management concurred with the OIG recommendation to take aggressive and immediate
action to significantly reduce the cost of the air services and agreed to terminate the
Amarillo shuttle service. Management did not concur with the OIG recommendation to
sell the BE-200 King Air aircraft used for the Amarillo shuttle. (IG-0435 and IG-0437)

The Department Needs To Develop Consistent Policy on Conference Activities. The
OIG conducted two reviews that identified weaknesses in the Department’s management
of its conference activities. In one review, the OIG found that the Department had not
developed adequate policies and procedures for conducting its conference activities and
the conference activities of its contractors, which resulted in weaknesses in some
conference practices of the Department’s contractors. For example, (1) some non-
Department conference facilities are being selected by National Laboratories without
evaluating or documenting the cost of alternative conference sites, (2) some conferences
were attended by many Department-funded participants; however, the OIG could not
identify any Department policy which ensures that the number of conference participants
is kept to a minimum, and (3) some conferencing practices of Department contractors
may not be consistent with Government policy regarding the use of Federal funds. The
OIG made seven recommendations to improve conferencing activities throughout the
Department. Department management concurred with the finding and five of the seven
report recommendations, while partially concurring with the other two.

The OIG also audited costs associated with a conference cosponsored by the Department
and Florida International University (FIU). The conference, “X-Change 1997: The
Global D&D Marketplace,” included speeches and workshops on decontamination and
decommissioning topics, exhibits of technologies presented by industry, and special
events such as receptions and dinners. The OIG concluded that although FIU
implemented accounting and budget mechanisms to identify and control the sources and
uses of funds, the absence of a Department policy on funding conferences resulted in
questionable fiscal practices associated with the conference. For example, the
Department’s plan to retain registration and exhibit fees was not consistent with
Government budgetary and accounting requirements. Further, the Department did not
have a specific statutory authority to retain these fees, which constitute miscellaneous
receipts that must be returned to the Department of Treasury. The OIG found that



                                           4
OIG Semiannual Report to Congress


sponsorship funds were used to pay for the conference’s social events without
reimbursing the Department for the cost of benefits provided to the sponsors. The
Department also incurred additional conference costs because it paid the costs of the
conference as well as registration and exhibit fees for its employees and contractors.

In response to the recommendations in the reports, the Department issued a Department
Notice that addressed the OIG concerns. (IG-0429 and IG-0433)

$31 Million in Delinquent Accounts Receivable Returned to the Department. The
Albuquerque Operations Office (Albuquerque) collected $31 million of delinquent
accounts receivable from other Federal agencies as a result of the audit of the
Department’s Fiscal Year 1997 financial statements. The money collected was returned
to the Department accounts that originally funded the work.

In the July 10, 1998, audit report, Matters Identified at the Albuquerque Operations
Office During the Audit of the Department’s Consolidated Fiscal Year 1997 Financial
Statements, the OIG reported that Albuquerque was not following up on accounts
receivable that were over 90 days delinquent. When, as part of the financial statement
audit procedures, the auditors sent confirmation letters to 17 of the debtors, 2 responded
that they would be sending in $2.4 million owed to Albuquerque. The audit report
recommended that Albuquerque implement the debt collection strategy outlined in the
DOE Accounting Handbook. Albuquerque did so and collected an additional $29
million.

A Department Weatherization Subgrantee Submits Unsupported Claims. The OIG
received information from the Federal Bureau of Investigation that a U.S. Department of
Energy Weatherization Assistance Program subgrantee may have defrauded the
Government. During this reporting period, one of the subjects of this case entered into a
Pretrial Diversion Agreement with the U.S. Attorney’s Office for the Western District of
Arkansas. The subject participated in a scheme to falsely report the number of residences
being weatherized, causing a $75,280 overpayment of Federal funds to the subgrantee.
These funds were subsequently recovered. In the Pretrial Diversion Agreement, the
subject accepted responsibility for a 1-count violation of Title 18, Section 1001 (False
Statements). (I95AL035)

Company Supervisor Directs Employees to Mischarge. A Department contractor
notified the OIG that it had identified some mischarging on its Department of Energy and
other Government agency contracts. An OIG investigation and a Defense Contract Audit
Agency (DCAA) audit substantiated the mischarging, which was higher than originally
reported by the company. The investigation and audit determined that a company
supervisor directed employees to mischarge their time among several Government
contracts. The mischarging was done, in part, to prevent cost overruns on various tasks
managed by the supervisor.

During this reporting period, the company supervisor entered into a pretrial diversion
agreement in the U.S. District Court for the District of Columbia. As part of the



                                             5
OIG Semiannual Report to Congress


agreement, the supervisor was placed on probation for 6 months and ordered to perform
30 hours of community service. As previously reported, the OIG investigation and
DCAA audit resulted in a $425,000 civil settlement between the Department of Justice
and the contractor. (I94HQ005)




                                          6
OIG Semiannual Report to Congress


      OIG ACCOMPLISHMENTS IN MEETING ITS STRATEGIC GOALS


The planning of OIG work supports the goals, objectives, and strategies outlined in the
OIG’s 5-year Strategic Plan. The OIG organizes and prioritizes its workload to ensure
that audits, inspections, and investigations help the Department in enhancing the overall
performance of its core business lines (Energy Resources, National Security,
Environmental Quality, and Science and Technology). During this semiannual reporting
period, the OIG worked diligently toward achieving its strategic goals and objectives.
OIG significant accomplishments are organized in this section according to the four goals
outlined in the OIG Strategic Plan.

Goal: Conduct statutorily required audits of the Department of Energy to enhance the
public’s ability to rely on the Department’s financial and management systems.

Consolidated Financial Statements Audit. In fulfilling the requirements of the
Government Management Reform Act, the OIG completed its audit of the Department's
Fiscal Year 1998 Consolidated Financial Statements. Despite new accounting standards
and OMB guidance, the OIG completed the audit by the statutory reporting date. The
report included the OIG's opinion that:

       except for the environmental liabilities line items in Fiscal Year 1998, these
       financial statements presented fairly, in all material respects, the financial
       position of the Department as of September 30, 1998 and 1997, and its
       consolidated net cost, changes in net position, budgetary resources, financing
       activities, and custodial activities for the years then ended in conformity with
       Federal accounting standards.

The OIG also reported on the Department's system of internal controls and on its
compliance with laws and regulations applicable to financial statement audits. The
Department's financial statements reported net assets of $98 billion, total liabilities of
$230 billion, and net cost of operations of $21 billion.

The report on the system of internal controls identified needed improvements to the
Department's environmental liabilities estimating process and the reporting of
performance measure information. The Department's effort to address the environmental
consequences of its nuclear weapons mission has been recognized as the largest
remediation program of its kind ever undertaken. While the Office of Environmental
Management has restructured the focus of estimating costs and planning work to enhance
accuracy, further improvements are needed. Weaknesses in controls over the
Department's estimating process precluded the OIG from forming an opinion on the
reasonableness of environmental liabilities account balances reported on the Fiscal Year
1998 financial statements. The report also indicated in the Overview to the financial
statements that controls over performance measure information needed to be
strengthened. In addition to the Departmentwide report, the OIG issued a series of
separate local reports to lower levels of Department management. These reports



                                              7
OIG Semiannual Report to Congress


contained other conditions relating to the Department's system of internal controls. The
recommendations made in these reports were intended to strengthen internal controls or
improve operating efficiencies. (IG-FS-99-01)

Goal: Conduct performance reviews which promote the efficient and effective
operation of the Department of Energy’s business lines.

The Department Needs to Develop a Coordinated Program to Preserve Nuclear
Weapons Complex Knowledge Base. The OIG assessed the Department’s efforts to
preserve the data, information, and knowledge pertaining to the nuclear stockpile. The
OIG found that the Department had not developed an integrated program to preserve the
knowledge base of the downsized nuclear weapons complex. Although each of the
weapons complex sites included in the audit was conducting archiving and knowledge
capture activities, there was little overall consistency among the sites in terms of
planning, approach, and progress made.

Without a coordinated program for knowledge preservation, the Department risks not
identifying and using all information that would provide continued high confidence in the
nuclear stockpile. Specifically, the Department cannot ensure that all relevant
information will be included in a comprehensive, well organized, and easily accessible
knowledge base, and that priorities for the capture of data, information and knowledge
are appropriate and consistent throughout the nuclear weapons complex.

The OIG recommended that the Assistant Secretary for Defense Programs assign
programmatic responsibility for developing and implementing a performance plan for
knowledge preservation activities and for integrating site activities throughout the
Department for the nuclear weapons complex. The Assistant Secretary for Defense
Programs concurred with the report’s findings, conclusions, and recommendation.
(IG-0428)

Performance-Based Contract Economic Goals Not Being Met. To offset the negative
impact of downsizing its facilities, the Department established a commitment to
economic stability. In its Fiscal Year 1997 Strategic Plan, the Department set a goal to
help industry sustain long-term economic growth. That goal was to create 10,000 to
15,000 new jobs in the private sector comparable to or better in skill than the jobs being
lost at Department facilities.

The Richland Operations Office (Richland) awarded Fluor Daniel Hanford Inc. (Fluor
Daniel) a 5-year performance-based Project Hanford Management Contract
(Management Contract) to support cleanup of the Department’s Hanford Site. Under the
contract, Fluor Daniel and its major subcontractors would help create 3,000 new, non-
Hanford, private sector jobs over a 5-year period that would help stabilize and diversify
the State of Washington’s Tri-Cities’economy. The Management Contract specifically
required that 200 jobs be created by the end of the first year.




                                            8
OIG Semiannual Report to Congress


In examining the progress made in the first year of the Management Contract, the OIG
found that most of the new jobs Fluor Daniel claimed it created during Fiscal Year 1997
were not comparable to Hanford jobs and did not help Richland meet its commitment for
long-term economic stability. The new jobs did not have one or more of the following
characteristics: high skill, high pay, long-term employment, and non-Hanford related.
Therefore, Flour Daniel had not met its expectations in the first year and was not making
adequate progress toward meeting the Management Contract’s overall economic goals.

The OIG recommended that Richland establish management contract performance
expectations that define the quality of jobs promised by Fluor Daniel and desired by the
Department. Department management did not concur with the overall OIG finding and
recommendation. (IG-0430)

Procurement and Assistance Data System Not Meeting User Needs.
The Procurement and Assistance Data System (PADS) is the Department’s official
computerized system maintained to collect, track, and report procurement and financial
assistance actions. The OIG determined that, although PADS did not contain material
inaccuracies or omissions of data, the system did not meet user needs or comply with
current generally accepted system practices. Due to an outdated system design, PADS
was not easy to use, particularly with regard to data entry and retrieval. Furthermore, the
system did not provide users with the information they believed was needed to manage
procurements. As a result, the field and program offices relied on systems that they had
independently developed to meet their information needs. In recent years, the
Department undertook an initiative to redesign PADS. According to Department
officials, that effort was unsuccessful because the contractor responsible for the initiative
did not meet performance expectations. Further, the OIG concluded that the effort was
flawed because it did not sufficiently involve users and it was not part of an overall
Department information architecture systems development approach.

The OIG recommended that the Department develop a plan to provide procurement and
financial assistance information. In developing this plan, the Department should ensure
that users of procurement and financial information are included in the process, and that
steps taken in the plan are consistent with the Department’s Information Technology
Architecture. Department management concurred with the recommendation and agreed
with the need to develop a plan. (IG-0436)

Deferring the Processing of Transuranic Contaminated Waste Could Save $66
Million. The Idaho National Engineering and Environmental Laboratory (Laboratory)
stores nearly 65,000 cubic meters of waste generated on site or brought to the State of
Idaho from Department sites across the country. The Department, the Navy, and Idaho
signed a settlement agreement (Agreement) on October 17, 1995. The Agreement
imposed specific milestones on the Department for removing the waste from Idaho. To
meet the first milestone, the Department awarded, nearly 6 months ahead of schedule, a
fixed-price contract to construct and operate the Advanced Mixed Waste Treatment
Facility (Treatment Facility). Other milestones included shipping the first load of waste
from Idaho by April 30, 1999, and shipping at least 3,100 cubic meters of waste out of



                                              9
OIG Semiannual Report to Congress


Idaho by December 31, 2002. The Agreement also required the Treatment Facility to
begin operation by March 31, 2003.

The OIG review disclosed that waiting until the Treatment Facility could process the
3,100 cubic meters of waste would be more economical and reduce environmental risks
to Laboratory employees. By deferring processing until the new Treatment Facility is
operational, the Department could save $66 million. Therefore, a compromise between
Department and Idaho officials allowing such a deferral would be in the best interest of
the Government. While Department Management agreed with the report and its contents,
it did not agree to implement the recommendation. (IG-0440)

A Major Decontamination and Decommissioning Project Did Not Include the
Facility That Posed the Greatest Health, Safety, and Environmental Risks. The
Department’s Oak Ridge Operations Office (Operations Office) is responsible for
identifying contaminated facilities at the East Tennessee Technology Park (ETTP),
documenting the potential for reuse and recovery of materials and equipment, and
developing schedules for decommissioning facilities. At ETTP, almost 90 percent of
approximately 14.4 million square feet of space is comprised of buildings that are
currently undergoing or are planned for decontamination and decommissioning (D&D).
Department policy requires that D&D projects be prioritized based on employee and
public health and safety, protection of the environment, compliance with environmental
laws and regulations, cost-effectiveness, and future site plans.

The Operations Office reduced health, safety, and environmental risks through D&D
projects at the ETTP. However, the OIG found that the major ongoing D&D project at
the ETTP did not include the facility which posed the greatest risks from exposure to
radioactive waste, hazardous or toxic materials, and structural collapse. Specifically, the
Operations Office did not fully emphasize reductions of health, safety and environmental
risks when it selected and performed D&D projects at the ETTP. As a result, a high-risk
facility continues to deteriorate, and hazards to workers and the environment are
increased. Also, the Department could incur $34.5 million in unnecessary surveillance
and maintenance costs between Fiscal Years 1998 and 2002 for a building that poses
significant risks to workers and the environment.

The OIG recommended that the Manager, Oak Ridge Operations Office, require that
D&D projects be selected and performed with greater emphasis on reducing health,
safety, and environmental risks for workers and the public. Management did not concur
with the OIG finding or recommendation and stated that the D&D decisions made were




                                            10
OIG Semiannual Report to Congress


appropriate for risk reduction due to the complexity and hazardous nature of process
equipment dismantlement and the associated risks posed to demolition workers.
(ER-B-99-01)

Small and Disadvantaged Businesses are Not Provided Fair Opportunity to
Compete. The Small Business Act (Act) requires that small business concerns owned
and controlled by socially and economically disadvantaged individuals have the
maximum practicable opportunity to participate in contracts awarded by any Federal
agency. Full and open competition among eligible small disadvantaged firms is essential
to achieve this goal.

The OIG determined that the Department’s Chicago Operations Office (Chicago) did not
provide the “maximum practicable opportunity” for small and disadvantaged businesses
to participate in contract awards. As of June 1998, Chicago had 12 open contracts with
small and disadvantaged businesses enrolled in the 8(a) program with total estimated
costs of $41.2 million. Only 3 of the contracts, valued at $23.0 million, were awarded
competitively. The other 9, with estimated costs below the $3 million threshold requiring
competition, were awarded as sole-source procurements. The OIG also found that
changes to the terms and conditions of two of the procurements indicate that adjustments
were made to reduce the total anticipated costs to a level allowing the contracts to be
awarded without competition. Because of the lack of competition, the Department may
have paid more than necessary for services provided by some 8(a) firms. Further, all
eligible small disadvantaged businesses did not have the opportunity to compete for the
work.

The OIG recommended that the Chicago Acquisition and Assistance Group establish
policies to (1) require acquisition personnel to comply with the “maximum practicable
opportunity” requirements of the Act, (2) prohibit acquisition personnel from modifying
the terms or conditions of 8(a) procurements to reduce cost estimates and avoid the
requirement to seek competitive bids, and (3) require acquisition personnel to seek
competitive bids instead of awarding follow-on contracts to incumbent contractors on a
sole-source basis. Management did not concur with the finding or recommendations.
(ER-B-99-02)

Light Vehicles Fleet Is Larger Than Necessary. In a prior audit report, Audit of Light
Vehicle Fleet Management at the Idaho National Engineering Laboratory, WR-B-93-07,
September 29, 1993, the OIG concluded that the General Services Administration (GSA)
could manage vehicle fleet operations more cost effectively than the Idaho Operations
Office (Idaho) and its contractor. The OIG also concluded that a significant number of
vehicles were underused and the fleet was too large. Accordingly, the OIG
recommended that the Department conduct a cost comparison study to ascertain




                                           11
OIG Semiannual Report to Congress


the most economical and efficient method of managing fleet operations and that the
contractor periodically review vehicle usage data, with prompt reassignment or disposal
of significantly underused vehicles.

GSA conducted a cost comparison which indicated that Lockheed Martin Idaho
Technologies Company operated the light vehicle fleet in a cost competitive manner.
The OIG followup audit found that 5 years after reporting that 41 percent of the light
vehicles at Idaho were underused, the situation had grown worse. The audit showed that
45 percent of the light vehicles (excluding special purpose vehicles) were used
significantly less than the mileage standards. Underuse had continued because Idaho and
its contractor had not reviewed individual vehicle use against mileage standards. The
continued underuse is particularly disturbing in light of Idaho and Department
Headquarters agreement to prior recommendations.

The OIG recommended that Idaho annually review individual vehicle use against mileage
standards and promptly dispose of or reassign vehicles not meeting the standards. The
OIG also recommended that the Idaho Deputy Manager be provided a vehicle assignment
report for review and approval. Department management concurred with the finding and
recommendations and is planning corrective action. (WR-B-99-02)

An Annual Savings of $1.5 Million Could Be Lost if Contractors Continue
Acquiring Services Already Available on Site. To operate
the Hanford Site (Site), contractors need to use numerous services, such as
telecommunications, copying, and photography. The Richland Operations Office
(Richland) directed certain contractors to provide these and other services, called “site
services,” for the benefit of all contractors and assigned responsibility for optimal
utilization of these services to its Site Infrastructure Division (SID). In the past, the OIG
audited several site services, including groundwater monitoring, protective forces,
personnel security clearances, railroad services, and fleet management. These audits
disclosed that the services were not always efficiently and effectively coordinated.

An OIG audit examined other site services, principally those provided at least in part by
Fluor Daniel Hanford, Inc., to determine if contractors were acquiring services already
available. The audit determined that contractors acquired telecommunications, copying
and photography services that were already available, even though the Site had enough
capacity to respond to contractors’needs. Although SID was responsible for optimal use
of site services, it neither used nor obtained information needed to properly coordinate
the use of those services. Instead, it allowed the contractors to develop in-house services
or purchase commercial services rather than use the established site services. If Richland
continues to allow contractors to independently procure services already available on site,
it will forgo savings of almost $1.5 million annually.

The OIG recommended that Richland gather and use information on site services to
coordinate the contractors’use of available service capacity and direct contractors to use
site services that are available. The Richland Operations Office concurred with the
finding and recommendations and is planning corrective action. (WR-B-99-03)



                                             12
OIG Semiannual Report to Congress



Alternative Work Schedules Could Result in Less Overtime and More Productive
Time. In April 1995, the OIG concluded that couriers at the Department’s Albuquerque
Operations Office (Operations Office) received too much overtime and incurred too
much unproductive time each pay period. The report recommended that the Operations
Office Transportation Safeguards Division (TSD) implement an alternative work
schedule that corresponded more closely to the courier’s actual work requirements.

In response to the prior audit, TSD enhanced management controls over the traditional
schedules but did not implement an alternative work schedule for the couriers. The
improved management controls reduced average overtime per person from 39 to 27 hours
per pay period and reduced unproductive time from 22 to 13 hours per pay period per
person for those couriers who routinely traveled. Despite these improvements, couriers
still received more overtime and incurred more unproductive time than necessary. If
TSD had used an alternative schedule, the couriers’ work would more closely fit the
demands of the job. Thus, the costs of overtime could be reduced by as much as $1.7
million annually and unproductive time would also be reduced.

The OIG recommended that Department management (1) implement an alternative work
schedule for couriers which would achieve savings in overtime and unproductive time
while efficiently and cost effectively fulfilling the TSD mission, and (2) reexamine and
adjust the staffing level of each courier section in relation to the workload requirements
in the area. Department management concurred with the recommendations and stated
that TSD has made progress in reducing the amount of overtime and unproductive time.
(WR-B-99-01)

Cost Sharing Could Be Beneficial to Energy Research User Facilities. The
Department’s Office of Basic Energy Sciences (BES) funds the construction and
operation of 17 designated user facilities that are recognized as being critical to scientific
research. At user facilities, researchers set up their equipment on beam lines and use the
facilities’synchrotron or neutron source beams to conduct research experiments. BES
provides the base-operating budget for its user facilities and generally makes the facilities
available on a no-charge basis to all qualified researchers.

The OIG determined that cost sharing could enhance scientific research at BES user
facilities. Funding shortfalls have prevented BES’s user facilities from operating at
optimum levels. Both facility representatives and advisory panels have concluded that
additional funding is needed to increase beam operating time and quality, to upgrade
facilities, and to provide needed staff. Currently, users provide some contributions to
facilities such as support of beam line construction, instrumentation, and detectors. BES
needs to identify additional opportunities, however, for users to provide contributions.

The OIG recommended that the Director, Office of Science, seek opportunities for users
to share in the cost of facility enhancement and periodically perform and document
studies to evaluate the feasibility of cost sharing to supplement facility operating budgets.




                                             13
OIG Semiannual Report to Congress


Department management generally concurred with the finding and recommendations.
Management agreed that cost sharing should be used to support user facility
enhancements. Management expressed concern that implementation of cost sharing or
user fees to cover base operating costs could be seriously detrimental to the user facilities
and science. Nevertheless, management agreed to incorporate studies to evaluate the
feasibility of cost sharing into the relevant major reviews of its user facilities. (IG-0441)

Review Finds Department’s Tritium Source Selection Process Was Not
Undermined. The Department maintains the Nation’s nuclear weapons stockpile, of
which tritium is an essential component. Tritium has a relatively short half-life and must
be periodically replenished. Over the past 40 years, the Department has built and
operated 14 nuclear reactors to produce tritium and other nuclear materials for weapons
purposes. Today, none of these reactors are operational, and no tritium has been
produced since 1988. In order to maintain the current nuclear weapons capabilities, the
Department has been tasked to ensure rapid access to a new production source for tritium
within the next decade. Accordingly, the Department approved a formal Record of
Decision for a “Dual Track” strategy to assess the two most promising tritium supply
alternatives, Commercial Light Water Reactor (CLWR) and Accelerator for the
Production of Tritium (APT).

Based on a congressional request, the OIG initiated an inspection to determine whether
certain senior level Department officials may have engaged in a systematic effort to
undermine the validity of the APT option, and whether the then Deputy Secretary of
Energy directed subordinates to fire a Department official because the official had raised
concerns about the cost evaluations of the APT and the CLWR options.

The OIG found no systematic effort to undermine the validity of the APT option.
Similarly, the OIG did not find evidence that Department principals or staff worked to
improperly influence the outcome of the “Dual Track” process to advance one option
over the other. The OIG found no evidence of an environment that would limit the ability
or desire of Department employees to present balanced information about the tritium
source selection process. Senior Department officials consistently told the OIG that they
were not aware of any attempts to muzzle, intimidate, or exclude personnel in order to
ensure that the CLWR project appeared to be the most acceptable and cost effective
option. Also, the OIG did not find evidence of excluding key Department employees
from fully participating in the “Dual Track” process.

The OIG found that a senior official suggested to the Deputy Secretary that disciplinary
action be taken against an official in the Office of Defense Programs for providing
unauthorized direction to Los Alamos National Laboratory to expand the APT scope to
include the study of the production of medical isotopes and for the APT team’s
involvement in providing information to Congress that was not approved by the
Department. The OIG did not find evidence, however, that the Deputy Secretary directed
subordinates to fire the official. Further, the official confirmed that he had not been
reprimanded, threatened, or intimidated. (IG-0431)




                                             14
OIG Semiannual Report to Congress



Hazardous Waste Inventory Records Inaccurate and Incomplete. The OIG audited
the accuracy and reliability of waste inventories for the Oak Ridge Reservation and
Savannah River Site. In 1998, the two sites stored over 100,000 containers of hazardous,
low-level, and low-level mixed waste, with a total volume of 87,000 cubic feet. The OIG
found that the volume of hazardous, low-level, and low-level mixed waste stored at the
Oak Ridge Reservation was overstated in Fiscal Year 1998 inventory records, and the
locations of many waste containers at the Savannah River Site were recorded inaccurately
and incompletely. As a result, the Department could not rely on the waste inventory data
at the Oak Ridge Reservation to make informed decisions regarding the amount of waste
to be treated or disposed. Additionally, the Department incurred unnecessary costs
adjusting waste inventory data for management reports at the Oak Ridge Reservation and
locating waste containers for treatment or disposal at the Savannah River Site.

The OIG recommended that Department management (1) establish general requirements
for tracking and reporting waste inventories at the sites, (2) direct contractor personnel to
perform an inventory of stored waste and establish adequate procedures to ensure that
waste inventory records are kept current, accurate, and complete at all Oak Ridge
Reservation sites, and (3) ensure that the planned inventory of stored waste is completed
and that contractor personnel record the storage location for all containers and update
inventory data when containers are moved. Department management concurred with the
OIG recommendations and planned to take appropriate actions. The Oak Ridge
Operations Office did not agree, however, that programmatic or project decisions were
affected by the errors discovered during the audit. (IG-0434)

Reporting Guidelines for Implementation of the Price-Anderson Amendments Act
of 1988 Not Being Followed. To provide oversight regarding how well Department
contractors were adhering to the nuclear safety rules established by the Department to
implement the Price-Anderson Amendments Act of 1988 (PAAA), the Department
established an enforcement program, managed by the Office of Environment, Safety and
Health (EH). The most important goal of the Department’s PAAA enforcement program
is to encourage early identification and reporting of nuclear safety deficiencies and
violations of Department nuclear safety requirements by Department contractors
themselves, rather than by the Department.

An EH accident investigation report of a welder fatality at the Oak Ridge K-25 Site
identified a variety of safety management system breakdowns in work planning, hazard
evaluation, communication, and establishment and implementation of adequate work
controls. A subsequent OIG inspection determined, furthermore, that several of the
safety management system breakdowns also resulted in potential violations of
Department PAAA nuclear safety rules. The OIG identified examples of potential
noncompliances with Department nuclear safety rules. These involved the failure by
contractor personnel to follow established procedures for the welder’s activities on the
day of the accident. None of the violations of established procedures by contractor
personnel that contributed to the welder fatality were recognized by the EH accident
investigation board or the contractor as potential noncompliances with Department



                                             15
OIG Semiannual Report to Congress


PAAA nuclear safety rules. Thus, they were not self-reported by the contractor. The
OIG concluded that additional actions are required by the Department to ensure that EH
accident investigation boards and Department contractors are taking appropriate steps to
implement early identification and self-reporting of potential noncompliances.

The OIG made five recommendations to EH and the Oak Ridge Operations Office to
improve the identification and reporting of potential noncompliances. Department
management concurred with all of the recommendations. (IG-0438)

OIG Review Identifies Violation in Voluntary Separation Program. The OIG
received an allegation that a former Westinghouse Savannah River Company (WSRC)
senior manager terminated employment through the Voluntary Separation Program
(VSP), received a large bonus for doing so, and then returned to work at the Savannah
River Site (SRS) without observing a required l-year waiting period. The OIG examined
the former senior manager’s participation in the VSP program and employment during
the year following departure from WSRC.

The OIG determined that the former senior manager terminated employment with WSRC
under the VSP program. The former senior manager’s departure from WSRC was
delayed for 6 months, until December 31, 1996, in order for a replacement to be relocated
from Pittsburgh, Pennsylvania, to SRS and be familiarized with the position. The
underlying principle of the VSP was to allow WSRC and Bechtel Savannah River, Inc.
(BSRI) employees to voluntarily leave the SRS workforce, and, if replacement was
necessary, only be replaced by current SRS employees. The OIG concluded that by
allowing the former senior manager to participate in the VSP, and then replacing the
senior manager with an individual from Westinghouse’s headquarters in Pittsburgh,
WSRC did not meet the test of “prudent business judgment” required by its contract with
the Department.

The OIG recommended that (1) both the former senior manager’s VSP bonus payment of
$99,762, as well as $36,892 in travel and relocation costs expended to move the
replacement from Pittsburgh to SRS, be recovered from WSRC, and (2) Department
management determine whether any other senior WSRC or BSRI personnel who
participated in the VSP were replaced by non-SRS personnel and, if so, recover from the
appropriate contractor the associated costs. Department management concurred with the
findings and recommendations. (INS-O-99-01)

Improved Management Controls Over Working Capital Fund Operation Could
Result in Cost Reductions. The Department established the Working Capital Fund
(Fund) in January 1996, to increase efficiency of the Department’s operations, improve
management of administrative services, and provide an accurate full-cost budget for
programs and activities. The costs of the services administered by the Fund were
expected to total about $80 million in Fiscal Year 1998. The Fund organization consists
of a Board, a Fund manager, business line managers, and customer program managers.
The business line managers monitor and control the costs of services provided through
the Fund’s 10 business lines.



                                           16
OIG Semiannual Report to Congress



Although the Fund was making progress in meeting its objectives, additional
management attention could result in further cost reductions to the Department.

The OIG recommended that (1) the Office of Human Resources and Administration
(HR) resource managers implement a process to optimize their use of Fund services and
periodically compare use to that of other organizations, (2) HR develop procedures to
periodically assess the Fund’s business lines for efficiency and cost effectiveness in
providing their goods and services, (3) HR develop procedures to address how and when
to discontinue the Fund’s business lines that cannot compete with outside sources, and (4)
Fund management and the business line managers, in conjunction with the Chief
Financial Officer, take steps to improve the performance of the financial management
system. Department management concurred with the findings and recommendations and
agreed to take corrective actions. (CR-B-99-01)

Change to New Health Plan Administrator Results in Unreasonable Costs.
Westinghouse Savannah River Company (Westinghouse) manages and operates the
Savannah River Site in Aiken, South Carolina. From Calendar Years 1989 through 1996,
Westinghouse contracted with Aetna Insurance to administer its health plan. After
Aetna’s contract expired, Westinghouse chose Blue Cross/Blue Shield (BC/BS) of South
Carolina. Following the award of BC/BS’s contract, 47 health care providers in the
Aiken area resigned as preferred providers for BC/BS. The health care providers
complained that the fees paid by BC/BS were less than those paid through Aetna. In
response, Westinghouse instructed BC/BS to negotiate a modified fee schedule for all the
health care providers in the Aiken area. The OIG found that as a result of the higher rates
paid to Aiken area health care providers, the Department will incur unnecessary and
unreasonable costs of about $1.7 million over a 3-year period.

The OIG recommended that the Department (1) recoup health benefit costs that are
incurred under Westinghouse’s contract with BC/BS and determined to be unallowable
by the Contracting Officer, and (2) limit future reimbursements for health benefits to the
standard BC/BS rates. Management did not concur with the finding or recommendation
1, but concurred with recommendation 2. (ER-B-99-03)

Contractor Incurs $42,000 in Nonreimbursable Credit Card Charges. The
Department obtained the services of Rocky Mountain BankCard System as a means for
the Department and its contractors to make small purchases. The use of credit cards was
expected to simplify small purchase procedures and improve cash management. The
Department’s Ohio Field Office (Field Office) uses the credit card system and oversees
usage by the Fernald and Miamisburg Environmental Projects. Contractors under the
Field Office, Fluor Daniel Fernald (Fluor Daniel), and Babcock and Wilcox of Ohio
(B&W), also use the credit card system to make small purchases. The OIG found that
Fluor Daniel incurred and claimed credit card charges that were unallowable and
nonreimbursable under the terms of the contract. Fluor Daniel had not provided credit
cardholders with adequate guidance on items considered unallowable, and managers were
not consistently monitoring purchases. As a result, the Department reimbursed Fluor



                                            17
OIG Semiannual Report to Congress


Daniel about $42,000 in unallowable costs in Fiscal Year 1998.

The OIG recommended that the Manager, Ohio Field Office, require Fluor Daniel to (1)
specify unallowable and nonreimbursable items in its credit card policy and cardholder
guidelines, (2) require managers to monitor and approve credit card charges, and (3)
recover about $42,000 for Fluor Daniel for unallowable items invoiced and reimbursed in
FY 1998. Management agreed with the OIG finding and recommendations and stated
that appropriate action would be taken to correct the conditions disclosed in the report.
(ER-B-99-04)

Goal: Conduct investigations to promote efficient and effective Department operations
and maintain the integrity of the Department of Energy’s business lines by aggressively
pursuing fraud, waste, and abuse.

Subcontractor President Is Convicted for Submitting False Bioassay Data. The OIG
received allegations from the Environmental Protection Agency that a Department
subcontractor at the Sandia National Laboratory (SNL) may have committed fraud in
relation to a Department health and safety program. The company provided bioassay
services to SNL. Bioassay involves the testing of urine for potential exposure to nuclear
materials, and it is one of several important early warning measures for detecting
potential health and safety issues among workers handling such materials.

Criminal investigators from the OIG and the Federal Bureau of Investigation, as well as
State of New Mexico law enforcement officers, executed a search warrant at the
subcontractor’s facilities and seized important documentation. Critical test data and
invoices were analyzed in detail.

The ensuing OIG investigation disclosed evidence that the president of the subcontractor
authorized the submission of false bioassay data. The false test results were significant in
that they may have inaccurately identified a person’s actual exposure to nuclear
materials, thus placing the person at risk. Accurate reporting would have alerted
authorities to potentially excessive radioactive exposure. The Department took steps to
retest employees affected by the false test results.

The OIG referred the case to the U.S. Attorney’s office for the District of New Mexico
where it was accepted for criminal and civil prosecution consideration. The president of
the company was subsequently indicted on 136 counts of false claims and false
statements. Following a guilty plea to one count each of submitting a false claim and
false statement, the president was sentenced to 3 months in a Bureau of Prisons halfway
house, 3 months electronic monitoring, and 2 years supervised probation. Further, he
was ordered to pay $122,216 in restitution to the Department, a $40,000 fine, and a $200
assessment fee. In addition, as a result of an OIG Administrative Report to Management,
the Department debarred the president and his company from government contracting for
10 years. (I94AL019)




                                            18
OIG Semiannual Report to Congress


Contractor Pays the Government $450,000. An OIG investigation conducted jointly
with the Defense Criminal Investigative Service determined that a Department contractor
allowed its security guard force members and radiological control technicians to
improperly charge time at a Department facility located at the Idaho National
Engineering and Environmental Laboratory.

The OIG referred the case to the U.S. Attorney’s Office for the District of Idaho. The
case was declined for criminal prosecution but accepted for civil action. The Department
of Justice and the contractor entered into a settlement agreement in which the contractor
agreed to pay the Government $450,000 in connection with the Civil False Claims Act.
(I92IF005)

Subcontractor Official Participates in Scheme to Defraud the Department. A joint
investigation with the Federal Bureau of Investigation and the Department of Labor OIG
substantiated an allegation that a Department subcontractor submitted false invoices
under a cooperative agreement awarded by the Department’s Federal Energy Technology
Center.

The investigation disclosed that an official of the subcontractor submitted 13 fraudulent
invoices for payment to the prime contractor. The official inflated the amount of work
actually performed, thus resulting in overpayment. The proceeds from these false
invoices were used to cover unallowable costs and make improper purchases. The total
amount of the loss to the Government was $113,000.

As a result of the investigation, the U.S. Attorney’s Office accepted the case for criminal
prosecution. A grand jury indicted the subcontractor official on 13 counts of submitting
false claims (18 U.S.C. 287). The official subsequently entered a guilty plea to 2 counts
of the indictment and was sentenced to 6 months in a Federal correctional institution and
3 years of supervised release. The Department also debarred the official for a 3-year
period from receiving financial and nonfinancial assistance and benefits under Federal
programs. (I96PT007)

Contractor Charges Excessive Rates. The OIG investigated a Department contractor’s
alleged improper contracting activities, including allegations that the contractor provided
gratuities to Department officials, charged unallowable expenses, and improperly used a
Small Business Administration 8(a) Program contractor in order to obtain Department
contracts.

The initial allegations were unsubstantiated, but the investigation, conducted in
coordination with the Defense Contract Audit Agency (DCAA), disclosed that from 1990
to 1997 the contractor charged excessive Executive Compensation costs to the
Department and other Government contracts. Ensuing negotiations between the
Department, DCAA, and the contractor resulted in a reimbursement to the Government of
$200,000. In addition, an agreement was reached regarding the contractor’s Executive
Compensation rates for the years 1998-2000. (I94HQ024)




                                            19
OIG Semiannual Report to Congress


Savannah River Contractor Official Forges $92,000 Check. An OIG investigation
substantiated an allegation from the Department’s Savannah River Operations Office that
a Westinghouse Savannah River Company (Westinghouse) subcontractor improperly
endorsed and cashed a $ 92,252.29 check.

Westinghouse issued the check to the subcontractor as payment for services performed
for Westinghouse. Westinghouse cancelled the check via a stop payment order after it
learned that an unauthorized person picked up the check from Westinghouse.
Westinghouse then issued a new check for the same amount. In the meantime, the owner
of the subcontractor company regained possession of the original check, endorsed it over
to a creditor to satisfy a business debt, and deposited the newly issued check into a
company bank account.

The Aiken County, South Carolina, District Attorney accepted the case for criminal
prosecution. The subject pled guilty to a State charge of forgery and was sentenced to
5 years probation. As a condition of the plea agreement, the subject must pay $92,000 in
restitution to the Department. Additionally, as a result of an OIG Administrative Report
to Management, the Department debarred the subject and his company from Government
contracting for 2 years. (I97SR009)

A Contractor Employee Pays Civil Penalty for Misusing Government Time and
Equipment. An OIG investigation confirmed an allegation that a contractor employee at
the Los Alamos National Laboratory (Laboratory) operated a private business at the
Laboratory using Government equipment, time, and supplies.

The OIG found that the employee ran a personal business from 1983 through 1995, from
the Petrographic Thin Section Lab at the Laboratory. The employee admitted to working
on his private business at the Laboratory. As a result of the investigation, the Laboratory
dismissed the employee.

The OIG referred the case to the U.S. Attorney’s Office, District of New Mexico, where
it was declined for criminal prosecution but accepted for civil action. The employee
agreed to a consent judgment for violating the False Claims Act and was ordered to pay
$12,500. (I95AL022)

Employee Tampers With Federal Energy Regulatory Commission Internet
Webpage. The Federal Bureau of Investigation informed the OIG that, in August 1998,
someone had improperly tampered with the Federal Energy Regulatory Commission
(FERC) Internet Webpage by accessing the Webpage and replacing the picture of a
senior FERC official with an inappropriate image.

A preliminary investigation determined that someone using FERC network administrator
privileges accessed the FERC Webpage through an Internet account at a local university.
The investigation revealed that the name appearing on the university Internet account was
similar to the name of a FERC employee. Subsequent OIG review of university records
verified that the employee’s personal university account was used to access the FERC



                                            20
OIG Semiannual Report to Congress


computer at the exact time the change was made to the FERC Webpage image. When
interviewed by the OIG, the employee denied involvement in the vandalism.

The OIG issued an Administrative Report to Management (ARM). In response to the
ARM, FERC management reported that the employee had resigned from FERC. The
agency also took steps to improve computer security password procedures. (I98HQ015)

Oak Ridge Contractor Employee Downloads Pornographic Images.
An OIG investigation substantiated an allegation from an Oak Ridge Operations Office
contractor that an employee had downloaded child pornography from the Internet. The
investigation determined that, from May through September 1996, the employee used a
Government-owned computer to download images of child pornography.

The OIG referred this matter to the U.S. Attorney’s Office for the Eastern District of
Tennessee for criminal prosecutive consideration. The employee subsequently pled
guilty to one count of violating Title 18, U.S.C., Section 641 (Theft of Government
Property) and agreed to submit to psychosexual treatment and evaluation. The United
States District Judge has delayed sentencing pending the employee’s completion of the
court ordered treatment and evaluation. The contractor has dismissed the employee.
(I96OR035)

Department Supervisor Misuses Government Time and Equipment.
A Department employee notified the OIG that a GS-15 supervisor was conducting
outside employment in his Government office on official time and using Government
telephones and a fax machine.

An OIG investigation substantiated that the supervisor performed work for a local
business interest in his Government office over a 6-year period. The investigation further
disclosed that the supervisor submitted false statements to the Department when he did
not list the outside employment on five annual financial disclosure reports.

As a result of the investigation, Department management removed the supervisor from all
management and supervisory responsibilities and reassigned him to another office.
Management also withheld a performance award of $4,500. The supervisor subsequently
retired from Federal service. After negotiations with the U.S. Attorney’s Office for the
District of Columbia, the subject entered into a $22,500 civil settlement agreement.
(I95HQ016)

Contractor Employee Is Convicted for Credit Card Fraud. A joint investigation by
the OIG and the Defense Criminal Investigative Service substantiated an allegation that
an employee of an Oak Ridge Operations Office management and operating contractor
had misused Government credit cards. The investigation disclosed that the employee
used two Government credit cards to purchase $7,295 worth of items for personal use.
These items included camcorders, videocassette recorders, computers and home
accessories. The employee then created fraudulent invoices in an attempt to conceal the
use of the cards.



                                           21
OIG Semiannual Report to Congress



The OIG referred this matter to the U.S Attorney, Eastern District of Tennessee, for
criminal prosecutive consideration. The employee pled guilty to one misdemeanor count
of Title 18, United States Code, Section 641 (Theft of Government Property) and paid
$7,295 in restitution to the Department. The management and operating contractor
dismissed the employee. (I98OR011)

Contractor Employee Pays Restitution for Unallowable Supplemental Salary
Allowance. The OIG received an allegation from a Department contractor that a
contractor employee at the Sandia National Laboratories (Sandia) received a
supplemental salary allowance that he should not have received.

After transferring from Albuquerque to the Tonopah Test Range (Nevada) in May 1991,
the employee received a 10-percent salary increase for working at a remote site. In
February 1992, the employee was transferred back to Albuquerque and, upon his return,
was no longer entitled to the 10 percent allowance.

A review conducted by Sandia Payroll Department disclosed that the employee had
continued receiving the 10 percent salary allowance upon his transfer back to
Albuquerque. The overpayment totaled $16,759. The employee acknowledged that he
was not entitled to the salary allowance upon his return to Albuquerque. In response to an
OIG Administrative Report to Management, Sandia required the employee to pay
reimbursement, plus 5 percent annual interest.

The OIG referred the case to the U.S. Attorney’s Office, District of New Mexico. The
case was declined for criminal prosecution but accepted for civil action. The Department
of Justice and the employee entered into a settlement agreement in which the employee
admitted to violating the Civil False Claims Act and agreed to pay $10,300 in restitution.
(I97AL006)




                                            22
OIG Semiannual Report to Congress


Goal: Conduct inquiries which assist in fostering public confidence in the Department
of Energy.

CONTRACTOR EMPLOYEE REPRISAL COMPLAINTS AUTHORITY
TRANSFERRED

The OIG conducted a number of inquiries into contractor employee complaints filed
pursuant to 10 C.F.R. Part 708. These complaints concerned allegations that employees
disclosed fraud, waste, abuse, mismanagement, or health and safety issues or engaged in
other activity protected by Part 708 and that the disclosure(s) contributed to adverse
action by contractor management against the employees. Twenty-nine cases were
completed through issuance of Reports of Inquiry, settlement by the parties, or dismissal.
On April 14, 1999, pursuant to a Department revision of Part 708, responsibility for the
processing of Part 708 complaints transferred to the Office of Employee Concerns and
the Office of Hearings and Appeals.

MANAGEMENT REFERRAL SYSTEM

The OIG operates an extensive Management Referral System. Under this system,
selected matters received through the OIG Hotline or other sources are referred to the
appropriate Department manager or other Government agency for review and appropriate
action. Complaints referred may include such matters as time and attendance abuse,
misuse of Government vehicles and equipment, violations of established policy, and
standards of conduct violations. The OIG referred 95 complaints to Department
management and other Government agencies during the reporting period. The OIG asked
Department management to respond concerning the actions taken on 61 of these
complaints. The following are examples of the actions taken by management during this
reporting period on referred matters:

   • Inquiry substantiated that a phase II grant under the Small Business Innovation
     Research Program should not have been issued through that Program since the
     recipient of the grant no longer qualified as a small business. Department
     management is taking action to award follow-on grant money through an
     appropriate mechanism.

   • In response to a management referral concerning a subcontractor’s possible non-
     payment of funds into a 401k Employees’Savings Program, Department
     management requested a review of the subcontractor’s benefit administration by
     the Department of Labor, which resulted in subcontractor employees being
     reimbursed a total of almost $7,000.

   • As a result of substantiating that a contractor employee had misused a
     Government vehicle, contractor management counseled the employee and
     reinforced with all site employees the policies pertaining to the use of
     Government vehicles.
                          OTHER ACCOMPLISHMENTS


                                            23
OIG Semiannual Report to Congress




Congressional Requests. The OIG received 27 requests for data from the Congress, all
of which were responded to in a timely manner. OIG staff provided briefings to
Committee staff on 7 occasions and data or reports to the Congress in 34 instances. At
the request of the Subcommittee on Energy and Environment, House Committee on
Science, the Inspector General testified at a hearing on the Department’s implementation
of the Government Performance and Results Act.

Intelligence Activities. The OIG issued two quarterly intelligence reports pursuant to
Executive Order 12863, "President's Foreign Intelligence Advisory Board." The Order
requires the Inspectors General of the Intelligence Community to report to the
Intelligence Oversight Board concerning intelligence activities that the Inspectors
General have reason to believe may be unlawful or contrary to Executive Order or
Presidential directive.

Legislative and Regulatory Reviews. The OIG coordinated and reviewed 10 legislative
and regulatory items. This work was done in accordance with the Inspector General Act
of 1978, which requires the OIG to review existing and proposed legislation and
regulations relating to Department programs and operations and to comment on the
impact which they may have on economical and efficient operations of the Department.

OIG Establishes Technology Crimes Section and Technology Audit Section. In
response to increased cyber threats at the Department, the OIG has formed a Technology
Crimes Section and a Technology Audit Section. The mission of the Technology Crimes
Section is to promote the effective, efficient, and economical operation of Department
computer systems by providing technology-oriented investigative services. The mission
of the Technology Audit Section is to perform audits of information systems operations
and acquisitions for the Department and its major contractors.

“Paperless” Audit. In keeping with recent advances in audit technology, the OIG
successfully completed its first “paperless” audit. Auditors used specialized computer-
assisted audit tools designed to integrate new technology with accepted auditing practices
and standards. The audit was paperless from beginning to end. Supervisors reviewed
work on-line and in real-time, allowing audit staff to make corrections and improvements
immediately. The amount of review time was significantly reduced for this audit. After
the final report is issued, all files will be transferred onto a compact disk for retention.

Information Technology and Year 2000 Compliance. The OIG participated with the
Chief Information Officer in reviewing the Department’s progress in making its
computerized systems Year 2000 compliant. As a result of this collaboration, as well as
independent assessments, the OIG issued a series of memoranda to the Deputy Secretary
suggesting improvements to the Department’s conversion approach.

Over the past year, the OIG moved aggressively to ensure that its internal operating
systems, hardware and software would be Year 2000 compliant. Additionally, the OIG



                                            24
OIG Semiannual Report to Congress


took action to significantly redesign its Data Base Management System to achieve greater
efficiencies and, at the same time, change date codes to be Year 2000 compliant.
Currently, all internal operating system configurations and standard software and
hardware, including the OIG’s new data base management information system, have been
tested and replaced, as necessary, in order to be Year 2000 compliant.




                                          25
OIG Semiannual Report to Congress


                          MANAGEMENT CHALLENGES


The Inspector General plays a significant role in the Department’s Federal Managers’
Financial Integrity Act (FMFIA) process. As part of that process, the Department details
the areas of operations that it deems most vulnerable to inefficiencies. Those ten areas
are listed below:

   •   Surplus Fissile Materials
   •   Environmental Compliance
   •   Waste Isolation Pilot Plant
   •   Yucca Mountain
   •   Safety and Health
   •   Contract Management
   •   Project Management
   •   Inadequate Audit Coverage
   •   Unclassified Computer Security
   •   Financial Management System Improvements

In its Fiscal Year 1998 Accountability Report, the Department also recognized the impact
of the Year 2000 situation on Federal information systems. To address this issue, the
Department established critical milestones reflecting Governmentwide requirements that
encompass the 420 mission-critical systems the Department tracks.

The General Accounting Office, in its report “Major Management Challenges and
Program Risks,” addressed the following major performance and management challenges
that have limited the effectiveness of the Department in carrying out its mission:

   •   The Department has had difficulty completing large projects.
   •   The Department’s transition to external regulation is slow.
   •   The Department’s organizational structure allows challenges to go uncorrected.
   •   Contract management remains vulnerable to risk.
   •   The Department’s staff lacks technical and management skills.

Over this reporting period and in the OIG planning processes, the OIG focused efforts on
these critical issues.




                                           26
OIG Semiannual Report to Congress


                      RESOURCE CONSIDERATIONS


Resources remain a concern of the OIG. Over the last several years, the OIG has
undergone significant downsizing of over one-third of the office staff. During the past
year, the OIG has been able to conduct limited hiring to fill critical needs of this office.
This office has recently received increased numbers of requests from the Secretary and
the Congress to perform significant, critical and sensitive tasks. Additionally, the office
recently initiated its Technology Crime and Technology Audit Sections to address the
growing need for expertise in cyber crimes and high-tech and electronic transactions.
Further, the OIG understands that Congress is now considering proposed amendments to
the Government Performance and Results Act, which will require extensive OIG review
of the Department’s performance plans and reports.

Also, the Intelligence Community Whistleblower Protection Act of 1998, which was
enacted by Public Law 105-272 on October 20, 1998, provides for an increased role for
the OIG in reviewing complaints by members of the Department’s intelligence activities
“with respect to an urgent concern.” In order to address the continuing and growing
requirements of the OIG, without further negative impact on the OIG’s coverage of the
approximately $17 billion in Department programs, additional resources will be
necessary. As reported on page 26 of this Semiannual Report, the OIG emphasizes that
inadequate audit coverage continues to be one of the Department’s FMFIA
vulnerabilities.

The OIG understands the budgetary limitations that exist. Within those limits, the OIG
will continue to seek appropriate increases in the OIG budget authority in order to
address OIG resource needs.




                                             27
OIG Semiannual Report to Congress



                         REPORTING REQUIREMENTS
                     Inspector General Act of 1978, as amended


   IG ACT                           Requirement                        Page
   Citation

Section 4(a)(2)     Review of Legislation and Regulations                     24

Section 5(a)(1)     Significant Problems, Abuses, and Deficiencies See Write-ups

Section 5(a)(2)     Recommendations for Corrective Actions        See Write-ups

Section 5(a)(3)     Prior Recommendations Not Yet Implemented
                    (See U.S. Department of Energy Fiscal Year
                    1998 Accountability Report)

Section 5(a)(4)     Matters Referred to Prosecutive Authorities        1 and 40

Section 5(a)(5)     Summary of Refusals to Provide Information             None
   and 6(b)(2)

Section 5(a)(6)     List of OIG Audit Reports                                 29

Section 5(a)(7)     Summary of Significant Audit Reports          See Write-ups

Section 5(a)(8)     Table--Questioned Costs                                   37

Section 5(a)(9)     Table--Funds to be Put to Better Use                      36

Section 5(a)(10)    Summary of Prior, Unresolved Audit Reports                38

Section 5(a)(11)    Significant Revised Management Decisions               None

Section 5(a)(12)    Significant Management Decisions With
                    Which the Inspector General Disagreed                  None

Section 5(a)(13)    Summary of Unmet Remediation Plan Target Dates
                    for Noncompliant Financial Systems as Required by
                    FFMIA of 1996 (See Consolidated Financial Statements
                    Audit, IG-FS-99-01)




                                         28
OIG Semiannual Report to Congress



                              REPORTS ISSUED
                         October 1, 1998 – March 31, 1999


                               AUDIT REPORTS


                    Contract Audit Reports

ER-C-99-01          Interim Audit of Costs Incurred Under Contract No.
                    DE-AC24-92R21972 From October 1, 1995, Through
                    November 30, 1997, by Fluor Daniel Fernald, Inc.,
                    Fernald, Ohio, October 5, 1998
                    Questioned Costs: $820,000

WR-C-99-01          Final Audit of Costs Claimed Under U.S. Department of Energy
                    Contract No. DE-AC08-93NV11011, August 1, 1995 to September
                    30, 1998, Wachkenhut Services, Inc., Las Vegas, Nevada, March
                    18, 1999
                    Questioned Costs: $5,205

                    Operational Audit Reports

CR-B-99-01          Audit of the U.S. Department of Energy’s Working Capital Fund,
                    October 1, 1998

ER-B-99-01          Audit of Decontamination and Decommissioning at the East
                    Tennessee Technology Park, December 21, 1998
                    Savings: $34,500,000

ER-B-99-02          Audit of Small Disadvantaged Business Program at the Chicago
                    Operations Office, January 25, 1999

ER-B-99-03          Audit of Westinghouse Savannah River Company’s Health Benefit
                    Plan, January 25, 1999
                    Savings: $1,700,000

ER-B-99-04          Audit of Credit Card Usage at the Ohio Field Office and the
                    Fernald and Miamisburg Environmental Management Projects,
                    March 15, 1999
                    Questioned Costs: $42,000

ER-L-99-01          Audit of Sale of Land to an Oak Ridge Hospital, November 25,
                    1998




                                        29
OIG Semiannual Report to Congress


ER-L-99-02          Survey of the Fermi National Accelerator Laboratory’s
                    Involvement in the Large Hadron Collider Project, March 10, 1999

WR-B-99-01          Audit Report on Transportation Safeguards Division Courier Work
                    Schedules and Escort Vehicle Replacements, December 4, 1998
                    Savings: $4,600,000

WR-B-99-02          Audit Report on Vehicle Fleet Management at the Idaho National
                    Engineering and Environmental Laboratory, March 8, 1999
                    Savings: $321,000

WR-B-99-03          Audit Report on Hanford Site Contractors’Use of Site Services,
                    March 11, 1999
                    Savings: $7,400,000

WR-L-99-01          Audit of Commercialized Technology at Lawrence Livermore
                    National Laboratory, February 5, 1999

IG-FS-99-01         Audit of the U.S. Department of Energy’s Consolidated Financial
                    Statements for Fiscal Year 1998, February 25, 1999

IG-0428             Audit of the U.S. Department of Energy’s Efforts to Preserve the
                    Knowledge Base Needed to Operate a Downsized Nuclear
                    Weapons Complex, October 2, 1998

IG-0429             Audit of the U.S. Department of Energy’s X-Change 1997: The
                    Global D&D Marketplace Conference, October 16, 1998
                    Questioned Costs: $566,464

IG-0430             Audit Report on Project Hanford Management Contract Costs and
                    Performance, November 5, 1998

IG-0432             Audit Report on the U.S. Department of Energy’s Efforts to
                    Increase the Financial Responsibility of its Major For-Profit
                    Operating Contractors, November 20, 1998

IG-0434             Audit of Waste Inventory Data at Oak Ridge and Savannah River,
                    December 18, 1998

IG-0435             Audit of the Department of Energy’s Aircraft Activities, January 7,
                    1999

IG-0436             Audit Report on the U.S. Department of Energy’s Procurement and
                    Assistance Data System, January 19, 1999




                                         30
OIG Semiannual Report to Congress


IG-0437             Audit Report on Aircraft and Air Service Management Programs,
                    January 25, 1999
                    Questioned Costs: $504,000          Savings: $7,234,018

IG-0439             Audit Report on the U.S. Department of Energy’s Implementation
                    of the Government Performance and Results Act, February 4, 1999

IG-0440             Audit Report on Waste Treatment Plans at the Idaho National
                    Engineering and Environmental Laboratory, February 4, 1999
                    Savings: $66,000,000

IG-0441             Audit Report on Cost Sharing at Basic Energy Sciences User
                    Facilities, March 16, 1999

                    Financial Audit Reports

CR-V-99-01          Assessment of Changes to the Internal Control Structure and Their
                    Impact on the Allowability of Costs Claimed by and Reimbursed
to
                    Westinghouse Electric Corporation’s Bettis Atomic Power
                    Laboratory Under Department of Energy Contract No.
                    DE-AC11-93PN38195, February 25, 1999

CR-V-99-02          Assessment of Changes to the Internal Control Structure and Their
                    Impact on the Allowability of Costs Claimed by and Reimbursed
                    to the Lockheed Martin Corporation’s Knolls Atomic Power
                    Laboratory Under Department of Energy Contract No.
                    DE-AC12-76SN00052, February 25, 1999

ER-V-99-01          Assessment of Changes to the Internal Control Structure and Their
                    Impact on the Allowability of Costs Claimed and Reimbursed to
                    Argonne National Laboratory Under Department of Energy
                    Contract No. W-31-109-ENG-38, February 5, 1999

WR-FC-99-01         Audit of Southwestern Federal Power System Fiscal Year 1997
                    Financial Statement, October 6, 1998

WR-FC-99-02         Audit Report on Agreed-Upon Procedures Between the
                    Department of Energy and Occidental Petroleum Corporation for
                    the Sale of Naval Petroleum Reserve Number 1, December 1, 1998

WR-FC-99-03         Audit Report on Western Area Power Administration Fiscal Year
                    1998 Financial Statement Audit, March 31, 1999




                                        31
OIG Semiannual Report to Congress


WR-FS-99-01         Audit Report on Matters Identified at the Idaho Operations Office
                    During the Audit of the Department’s Consolidated Fiscal Year
                    1998 Financial Statements, March 16, 1999

WR-V-99-01          The U.S. Department of Energy’s Assessment of Changes to the
                    Internal Control Structure and Their Impact on the Allowability of
                    Costs Claimed by and Reimbursed to Fluor Daniel (NPOSR), Inc.
                    Under Department of Energy Contract No. DE-AC01-92FE62316,
                    October 2, 1998
                    Questioned Costs: $647,306

WR-V-99-02          U.S. Department of Energy’s Assessment of Changes to the
                    Internal Control Structure and Their Impact on the Allowability of
                    Costs Claimed by and Reimbursed to the Regents of the University
                    of California Lawrence Berkeley National Laboratory Under
                    Department of Energy Contract DE-AC03-76SF00098,
                    October 23, 1998

WR-V-99-03          Assessment of Changes to the Internal Control Structure and Their
                    Impact on the Allowability of Costs Claimed by and Reimbursed
                    to Bechtel Nevada Corporation Under Department of Energy
                    Contract No. DE-AC08-96NV11718, January 14, 1999
                    Questioned Costs: $173,744

WR-V-99-04          Assessment of Changes to the Internal Control Structure and Their
                    Impact on the Allowability of Costs Claimed by and Reimbursed
                    to Bechtel Petroleum Operations, Inc., Under Department of
                    Energy Contract No. DE-AC01-85FE60520, February 5, 1999


                           INSPECTION REPORTS*

INS-O-99-01         Report on Inspection of an Allegation Regarding the Voluntary
                    Separation Program at the Savannah River Operations Office,
                    October 5, 1998

IG-0431             Summary Report on Inspection of Issues Associated with the
                    Department of Energy’s Tritium Source Selection Process,
                    November 23, 1998

IG-0433             Report on Inspection of Department of Energy’s Conference
                    Policies and Practices, December 10, 1998




                                         32
OIG Semiannual Report to Congress


IG-0438              Report on Inspection of Reporting at Oak Ridge of Potential
                     Noncompliance With DOE Price-Anderson Amendments Act
                     Implementing Rules, January 26, 1999



   *Does not include 18 non-public Inspection reports.




                                          33
OIG Semiannual Report to Congress



                                     STATISTICS

DEFINITIONS. The following definitions, based on the Inspector General Act of 1978,
apply to terms used in this Semiannual Report.

Questioned Cost: A cost which the Inspector General questions because of:

   1. An alleged violation of a provision of a law, regulation, contract, grant,
      cooperative agreement, or other agreement or document governing the
      expenditure of funds;

   2. A finding that, at the time of an audit, such cost is not supported by adequate
      documentation; or

   3. A finding that the expenditure of funds for the intended purpose is unnecessary or
      unreasonable.

Unsupported Cost: A cost which the Inspector General questions because the Inspector
General found that, at the time of an audit, such cost is not supported by adequate
documentation.

Disallowed Cost: A questioned cost which Department management, in a management
decision, has sustained or agreed should not be charged to the Government.

Recommendation That Funds Be Put to Better Use (“Savings”): An Inspector
General recommendation that funds could be used more efficiently if Department
management took actions to implement and complete the recommendations, including:

   1. Reduction in outlays;

   2. Deobligation of funds from programs or operations;

   3. Withdrawal of interest subsidy costs on losses or loan guarantees, insurance or
      bonds;

   4. Costs not incurred by implementing recommended improvements related to
      Department operations, contractors, or grantees;

   5. Avoidance of unnecessary expenditures noted in preaward reviews of contract or
      grant agreements; or

   6. Any other savings which are specifically identified.

Management Decision: The evaluation by Department management of the findings and
recommendations included in an audit report and the issuance of a final decision by



                                            34
OIG Semiannual Report to Congress


Department management concerning its response to such findings and recommendations,
including actions determined to be necessary.

Final Action: The completion of all actions that Department management has
determined, in its management decision, are necessary with respect to the findings and
recommendations included in an audit report. In the event that Department management
concludes no action is necessary, final action occurs when a management decision has
been made.




                                          35
OIG Semiannual Report to Congress


                            AUDIT REPORT STATISTICS
                            October 1, 1998 – March 31, 1999


The following table shows the total number of operational and financial audit reports,
and the total dollar value of the recommendations.

                              Total        One-Time          Recurring               Total
                            Number          Savings            Savings             Savings

Those issued before the
reporting period for
which no management
decision has been made:*         12     $196,135,886       $247,240,000      $443,375,886

Those issued during the
reporting period:                34      $86,568,532        $37,120,000      $123,688,532

Those for which a
management decision was
made during the reporting
period:*                         29      $42,733,050       $119,120,000      $161,853,050

Agreed to by management:                  $3,761,000        $13,360,000       $17,121,000
Not agreed to by management:             $35,789,000        $96,480,000      $132,269,000

Those for which a
management decision is
not required:                     4                $0                 $0                 $0

Those for which no
management decision had
been made at the end of
the reporting period:*           13     $243,154,418       $174,520,000      $417,674,418



*The figures for dollar items include sums for which management decisions on the
savings were deferred.




                                           36
OIG Semiannual Report to Congress


                            AUDIT REPORT STATISTICS
                            October 1, 1998 – March 31, 1999


The following table shows the total number of contract audit reports, and the total dollar
value of questioned costs and unsupported costs.

                                   Total              Questioned          Unsupported
                                 Number                    Costs                Costs

Those issued before the
reporting period for
which no management
decision has been made:                 5             $7,759,186*               $84,241

Those issued during the
reporting period:                       2               $825,391                      $0

Those for which a
management decision was
made during the reporting
period:                                 1               $650,215                      $0

Value of disallowed costs:                              $650,215                      $0
Value of costs not disallowed:                                $0                      $0

Those for which a
management decision is
not required:                           0                      $0                     $0

Those for which no
management decision had
been made at the end of
the reporting period:                   6             $7,934,362                $84,241

*This figure has been adjusted downward by $269 to the correct figure shown due to
rounding on one monetary impact report submitted to the Office of Inspector General.




                                            37
OIG Semiannual Report to Congress


                REPORTS LACKING MANAGEMENT DECISION

The following are audit reports issued before the beginning of the reporting period for
which no management decisions had been made by the end of the reporting period, the
reasons management decisions had not been made, and the estimated dates (where
available) for achieving management decisions. These audit reports are over 6 months
old without a management decision.

The Contracting Officers have not yet made decisions on the following contract reports
for the following reasons. They include delaying settlement of final costs questioned in
audits pending completion of review of work papers and voluminous additional records.
The Department has a system in place which tracks audit reports and management
decisions. Its purpose is to ensure that recommendations and corrective actions
indicated by audit agencies and agreed to by management are addressed and effected as
efficiently and expeditiously as possible.

ER-CC-93-05           Report Based on the Application of Agreed-Upon Procedures
                      With Respect to Temporary Living Allowance Costs Claimed
                      Under Contract No. DE-AC09-88SR18035, October 1, 1987,
                      to September 20, 1990, Bechtel National, Inc., San Francisco,
                      California, and Bechtel Savannah River, Inc., North Augusta,
                      South Carolina, May 3, 1993
                      (Estimated date of closure: September 30, 1999)

WR-C-95-01            Report on Independent Final Audit of Contract No. DE-AC34-
                      RlRF00025, July 26, 1990, to March 31, 1993, Wackenhut
                      Services, Inc., Golden, Colorado, March 14, 1995
                      (Estimated date of closure: September 30, 1999)

ER-C-97-01            Report on Interim Audit of Costs Incurred Under Contract No.
                      DE-AC24-92OR219721 From October 1, 1994, to September 30,
                      1995, Fernald Environmental Restoration Management Corpora-
                      tion, Fernald, Ohio, December 20, 1996
                      (Estimated date of closure: May 31, 1999)

ER-C-98-03            Audit of Employee Benefit Costs for Government-funded
                      Agreements, Fiscal Years 1998 through 1995 Princeton University,
                      Princeton, New Jersey, July 29, 1998
                      (Estimated date of closure: September 30, 1999)

Additional time was necessary to develop management decisions for the following
reports. Further explanations for the delays follow each audit report.

CR-B-97-02            Audit of Department of Energy’s Contractor Salary Increase
                      Fund, April 4, 1997
                      The finalization of the management decision on this report is



                                           38
OIG Semiannual Report to Congress


                    awaiting resolution of one outstanding issue. It is estimated that
                    this will occur by June 30, 1999

ER-B-98-02          Audit of Environmental Monitoring and Health Physics
                    Laboratories at the Savannah River Site, October 24, 1997

                    The management decision is awaiting the resolution of a
                    nonconcurrence. It should be made by July 15, 1999.

IG-0411             Audit of the Contractors Incentive Programs at the Rocky Flats
                    Environmental Technology Site, August 13, 1997

                    The finalization of the management decision on this report is
                    pending the resolution of one outstanding issue. This should occur
                    by July 15, 1999.

IG-0421             Audit of the Department of Energy’s Interagency Agreement with
                    the National Institute of Environmental Health Science, July 17,
                    1998

                    The management decision is awaiting the approval of the
                    Secretary of Energy. It is estimated that this will occur by May 30,
                    1999.

IG-0425             Audit of the Department of Energy’s Facility Reuse at the Rock
                    Flats Environmental Technology Site, August 20, 1998

                    Final drafting of the management decision is underway. It is
                    expected that it will be approved by June 15, 1999.




                                         39
OIG Semiannual Report to Congress


                                      INVESTIGATIVE STATISTICS
                                      October 1, 1998 – March 31, 1999


Investigations open at the start of this reporting period ...............................                         253
Investigations opened during this reporting period .....................................                           32
Investigations closed during this reporting period.......................................                          61
Investigations open at the end of this reporting period ................................                          224
Qui Tam investigations opened ..................................................................                    3
        Total open Qui Tam investigations as of 3/31/99 ............................                               20
Multi-agency task force investigations opened ...........................................                           8
        Total number of multi-agency task force investigations
         as of 3/31/99.................................................................................             64
Investigative reports to prosecutors and Department management .............                                        12
Recommendations to management for positive change and other actions....                                             17
Administrative disciplinary and other administrative actions ......................                                 17
Debarments/suspensions.............................................................................                 11
Investigations referred for prosecution .......................................................                     18
        Accepted*.......................................................................................            14
        Indictments .....................................................................................            6
        Criminal convictions.......................................................................                  2
        Pretrial diversions ..........................................................................               4
        Civil actions ...................................................................................            5
Fines, settlements, recoveries** .................................................................          $8,954,153

* Some of the investigations accepted during the 6-month period were referred for
prosecution during a previous reporting period.

** Some of the money collected was the result of task force investigations.

Hotline Statistics

Hotline calls, letters, and other complaints..................................................                    548

Hotline calls, letters, and other complaints predicated ................................                          244
Hotline referrals received via the General Accounting Office .....................                                  8
Total Hotline actions predicated .................................................................                252

Investigations opened on Hotline complaints..............................................                           4
Hotline actions pending disposition............................................................                    32
Hotline actions transferred to the Management Referral System .................                                   140
Hotline actions that required no OIG activity..............................................                        76
Total Hotline actions disposition ................................................................                252




                                                             40
OIG Semiannual Report to Congress



                                        INSPECTION STATISTICS
                                       October 1, 1998 – March 31, 1999


Inspections open at the start of this reporting period ...................................                   124
Inspections opened during this reporting period..........................................                     30
Inspections closed during this reporting period...........................................                    51
Inspections open at the end of this reporting period ....................................                    103
Reports issued* ..........................................................................................    22
Allegation-based inspections closed after preliminary review .....................                            10
Reprisal complaint actions during this reporting period ..............................                        29
        Reprisal complaints dismissed ........................................................                 9
        Reports of reprisal inquiry issued ..................................................                 14
        Reprisal complaints settled .............................................................              2
        Reprisal complaints withdrawn.......................................................                   2
        Reprisal complaints completed by other means...............................                            2
Inspection recommendations
        Accepted this reporting period ........................................................               17
        Implemented this reporting period ..................................................                  10
Complaints referred to Department management/others .............................                             95
        Referrals to Department management requesting a response
         for OIG evaluation........................................................................           61
        Personnel management actions taken by management on
         matters referred.............................................................................          2
        Funds Recovered ............................................................................         $946
*
   Reports include non-public reports such as administrative allegations and personnel
security-related reports.




                                                              41
OIG Semiannual Report to Congress


---------------------------------------------------------------------------------------------------------


                                    FEEDBACK SHEET


---------------------------------------------------------------------------------------------------------


The contents of the April 1999 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. However, there may
be additional data which could be included or changes in format which would be
useful to recipients of the Report. If you have suggestions for making the report more
responsive to your needs, please complete this feedback sheet and return it to:

                                    Department of Energy
                                    Office of Inspector General (IG-15)
                                    Washington, D.C. 20585

                                    ATTN: Wilma Slaughter



Your name:

Your daytime telephone number:

Your suggestion for improvement: (please attach additional sheets if needed)




If you would like to discuss your suggestion with a staff member of the Office of
Inspector General or would like more information, please call Wilma Slaughter at
(202) 586-1924 or contact her on the Internet at wilmatine.slaughter@hq.doe.gov.




                                                   42
